No. ______

IN THE

SUPREME COURT OF THE UNITED STATES

MELISSA POCOPANNI,
Petitioner,
v.
STATE OF FLORIDA
Respondent.

On Petition for Writ of Certiorari
to the Florida First District Court of Appeal

MOTION TO PROCEED IN FORMA PAUPERIS

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 1 of 3

The Petitioner, MELISSA POCOPANNI, prays the Court for leave to file the
petition for a writ of certiorari without prepayment of costs and to proceed in forma
pauperis.1
Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

1

Undersigned counsel is still in the process of obtaining the Petitioner’s
indigency affidavit (through the prison mail system) and undersigned counsel will
provide the affidavit to the Court as soon as he receives the affidavit.
Page 2 of 3

CERTIFICATE OF SERVICE
I HEREBY CERTIFY a true and correct copy of the foregoing instrument was
furnished to:
Office of the Attorney General
PL-01, The Capitol
Tallahassee, Florida 32399-1050
by U.S. mail delivery on March 19, 2021.
Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 3 of 3

